HHS/OIG-Audit--"Reimbursement to Educational Institutions and Nonprofit Organizations: Guidelines Needed for
the Implementation of Financial Accounting Standards Board Statement Number 106, (A-01-93-04000)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Reimbursement to Educational Institutions and Nonprofit Organizations: Guidelines Needed for the Implementation
of Financial Accounting Standards Board Statement Number 106," (A-01-93-04000)
June 23, 1993
Complete
Text of Report is available in PDF format (839 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the Implementation of Financial Accounting Standards Board Statement
Number 106 by educational institutions (schools) and gateway.html institutions (gateway.htmls). The objective of our review
was to determine the effect of FASB 106 on the Office of Management and Budget (OMB) Circular A-21 (A-21), Cost Principles
for Educational Institutions and OMB Circular A-122 (A-122), Cost Principles for Nonprofit Organizations. Our review disclosed
that the effect of FASB 106 on PRB costs could materially increase the amount claimed for reimbursement by schools and
gateway.htmls conducting federally sponsored research. Prior to FASB 106, financial reporting under generally accepted
accounting principles (GAAP) recognized PRB costs when they were paid. Under FASB 106 , the expected cost of providing
PRBs to current employees and their beneficiaries and covered dependents are accrued. As such, institutions are now required
under GAAP to report accrued PRB costs for current and retired employees as a liability on their financial statements.